No. 20-148
In the

Supreme Court of the United States
MARVIN WASHINGTON, et al.,
Petitioners,
v.
WILLIAM P. BARR, ATTORNEY GENERAL, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Second Circuit
BRIEF OF AMICI CURIAE THE NATIONAL
CANNABIS INDUSTRY ASSOCIATION (NCIA)
AND THE ARCVIEW GROUP IN SUPPORT
OF PETITIONERS

Ian A. Stewart
Melissa A. Murphy-Petros*
Neil M. Willner
Wilson Elser Moskowitz Edelman
& Dicker, LLP
55 West Monroe Street, Suite 3800
Chicago, IL 60603-5001
(312) 704-0550
melissa.murphy-petros@wilsonelser.com
Counsel for Amicus Curiae
* Counsel of Record
298428

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTERESTS OF THE AMICI CURIAE  . . . . . . . . . . . 1
SUMMARY OF ARGUMENT  . . . . . . . . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

Exhaustion of Administrative Remedies Is
Futile Because the Administrative Agency
Is Unwilling and Incapable of Providing the
Legal Remedy Sought by the Petitioners . . . . . . 3
A. Prejudice from Agency Delay . . . . . . . . . . . . 4
B. DEA Is Incapable of Providing the
Remedy Sought by the Petitioners  . . . . . . . 5

II. DEA’s Limited Authority to Reclassify
Marijuana as a Schedule II Controlled
Substance Could Cripple the Burgeoning
Legal Cannabis Industry  . . . . . . . . . . . . . . . . . . . 9
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

ii
TABLE OF CITED AUTHORITIES
Page
CASES
Abbey v. Sullivan,
978 F.2d 37 (2d Cir. 1992) . . . . . . . . . . . . . . . . . . . . . . . 4
Alliance for Cannabis Therapeutics v. DEA,
15 F.3d 1131 (D.C. Cir. 1994)  . . . . . . . . . . . . . . . . . . . . 5
Ams. for Safe Access v. DEA,
706 F.3d 438 (D.C. Cir. 2013) . . . . . . . . . . . . . . . . . . . . 5
Barry v. Barchi,
443 U. S. 55 (1979) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Colorado River Water Conservation Dist. v.
United States,
424 U.S. 800 (1976) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
Gibson v. Berryhill,
411 U.S. 564 (1973)  . . . . . . . . . . . . . . . . . . . . . . . . . . 4, 9
Green Earth Wellness Center, LLC v.
Atain Specialty Ins. Co.,
163 F. Supp. 3d 821 (D. Colo. 2016) . . . . . . . . . . . . . . 11
Mathews v. Diaz,
426 U.S. 67 (1976)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
McCarthy v. Madigan,
503 U.S. 140 (1992)  . . . . . . . . . . . . . . . . . . . . . 2, 3, 9, 15

iii
Cited Authorities
Page
Moore v. East Cleveland,
431 U.S. 494 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
NORML v. DEA,
559 F.2d 735, 751 (D.C. Cir. 1977) . . . . . . . . . . 5, 6, 7, 8
U.S. v McIntosh,
833 F.3d 1163 (9th Cir. 2016) . . . . . . . . . . . . . . . . .  7, 11
United States v. Kiffer,
477 F.2d 349 (2d Cir. 1973) . . . . . . . . . . . . . . . . . . . . . . 7
Walker v. Southern R. Co.,
385 U.S. 196 (1966) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
West v. Bergland,
611 F. 2d 710 (CA8 1979), cert. denied,
449 U.S. 821 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
STATUTES AND OTHER AUTHORITIES
21 U.S.C. § 331(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
21 U.S.C. § 355(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
21 U.S.C. § 812  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
21 U.S.C. § 822  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
21 U.S.C. § 829(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

iv
Cited Authorities
Page
31 U.S.C. § 5312  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
21 C.F.R. § 312.2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
21 C.F.R. § 1301.12 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
66 Fed. Reg. 20,038 (April 18, 2001) . . . . . . . . . . . . . . . . . 5
76 Fed. Reg. 40,552 (July 8, 2011) . . . . . . . . . . . . . . . . . . . 5
Ca lifo r ni a De p a r tm e n t of Ta x a n d Fee
Admini str a ti o n, S t a t e o f C a l i f or n i a
(June 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Cannabis Jobs Report: Legal cannabis now
supports 243,700 full-time American Jobs,
Leafly (February 7, 2020) . . . . . . . . . . . . . . . . . . . . . 12
Colorado Department of Revenue, S tate of
	Colorado (February 2020)  . . . . . . . . . . . . . . . . . . . . 12
Cost of Clinical Trials for New Drug FDA
Ap p r o v a l Ar e Fr a c ti o n of Tot a l Ta b,
J o h n s H o p k i n s B l o o mb e r g S c h o o l o f
	Public Health (September 24, 2018) . . . . . . . . . . . . 14
FinCEN G uidance on BSA Expectations
Regarding Marijuana-Related Businesses
(February 14, 2014) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

v
Cited Authorities
Page
Ja v i e r H a s s e , E v e n A s O v e r a l l D e a l s
Declined , VC Investments in Cannabis
Ne a r l y D o u b l e d O v e r 2 019, F o r b e s
(January 28, 2020) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
Me d i c a l Ma r i j u a n a Pa t i e n t Nu m b e r s ,
Marijuana Policy Project (July 6, 2020) . . . . . . . . 10
Wa shin g t o n St at e Liqu o r an d Cann abi s
Board, A nnual R eport F iscal Year 2019
(June 2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

1
INTERESTS OF THE AMICI CURIAE1
The National Cannabis Industry Association (NCIA)
is the largest cannabis trade association in the United
States and the only organization that broadly represents
cannabis-related businesses at the national level.
Representing well over 1,000 member businesses and tens
of thousands of cannabis professionals, NCIA promotes
the growth of a responsible and legitimate cannabis
industry and works toward a favorable social, economic,
and legal environment for that industry.
The Arcview Group is the cannabis industry’s oldest
and largest investor network. Since 2010, more than 1,000
individual investors have invested $300 million into over
one hundred cannabis startups in the United States.
Founded with the purpose of leveraging business as a
vehicle for political and social change, The Arcview Group
is dedicated to destigmatizing the cannabis industry by
investing in credible, scalable, and profitable cannabis
businesses.
Amici have an interest in the responsible and legal
development of a sustainable cannabis industry in the
United States, as well as in protecting the constitutional
rights of their member constituents, patients and
consumers.
1. All parties have consented to the filing of this brief. Amici
timely provided notice of intent to file this brief to all parties. NCIA
and The Arcview Group state that no counsel for a party to this
case authored this brief in whole or in part; and no counsel or party,
other than Amici and its counsel, made a monetary contribution
intended to fund the preparation and submission of this brief.

2
SUMMARY OF ARGUMENT
Amici join the Petitioners’ argument that the lower
courts erred in requiring exhaustion of administrative
remedies as a prerequisite to the Petitioners’ request
for a declaration that the classification of cannabis
under the Controlled Substances Act 2 (CSA) violates
the Due Process Clause of the Fifth Amendment to the
U.S. Constitution. Amici further submit that requiring
exhaustion would result in the Petitioners facing
substantial prejudice from an unreasonable and indefinite
time frame for administrative action by the Drug
Enforcement Administration (DEA), which continues
to maintain an irrational and archaic position on the
scheduling of cannabis that is out of step with sweeping
medical, scientific, legal and social advances. Although
the Second Circuit expressed its concern over agency
delay, the Court failed to recognize that DEA is not only
unwilling but also incapable of providing the remedy
sought by the Petitioners, making exhaustion futile and
inappropriate. As recently as 2016, DEA reiterated its
long-standing but flawed position that it cannot legally
classify cannabis anywhere but Schedule I of the CSA,
or potentially Schedule II. Reclassification of cannabis
to Schedule II does not represent a viable remedy for
the Petitioners, who have not requested reclassification
in any event. It appears that the Second Circuit fails to
recognize these critical points. Pursuant to McCarthy
v. Madigan, 503 U.S. 140 (1992), a reasonable balancing
of the individual and institutional interests here should
lead only to the rational conclusion that exhaustion is
not necessary and that the matter should be allowed to
proceed in the district court.
2. 21 U.S.C. § 812 et. seq.

3
ARGUMENT
I.

Exhaustion of Administrative Remedies Is Futile
Because the Administrative Agency Is Unwilling
and Incapable of Providing the Legal Remedy
Sought by the Petitioners

This Court’s longstanding precedent obligated
the lower courts to use sound judicial discretion in
determining whether to require exhaustion “by balancing
the individual’s interest in retaining prompt access to a
federal judicial forum against countervailing institutional
interests favoring exhaustion.” McCarthy, at 140. In
making this determination, “[i]ndividual interests have
weighed heavily where resort to the administrative
remedy would occasion undue prejudice to subsequent
assertion of a court action, where there is some doubt as
to whether the agency is empowered to grant effective
relief, or where the administrative body is shown to be
biased or has otherwise predetermined the issue before
it.” Id. at 140-141.
The Court in McCarthy held that “federal courts are
vested with a ‘virtually unflagging obligation’ to exercise
the jurisdiction given them,” notwithstanding substantial
institutional interests. Id. at 146, citing Colorado River
Water Conservation Dist. v. United States, 424 U.S.
800, 817–818 (1976). In addition, the Court cautioned
that “administrative remedies need not be pursued
if the litigant’s interests in immediate judicial review
outweigh the government’s interests in the efficiency or
administrative autonomy that the exhaustion doctrine is
designed to further.” Id., citing West v. Bergland, 611 F.
2d 710, 715 (CA8 1979), cert. denied, 449 U.S. 821 (1980).

4
A.

Prejudice from Agency Delay

Here, the Petitioners face substantial prejudice
from an unreasonable and indefinite time frame for
administrative action by DEA. See Id. at 147, citing Gibson
v. Berryhill, 411 U.S. 564, 575, n. 14 (1973) (administrative
remedy deemed inadequate “[m]ost often … because
of delay by the agency”). The Second Circuit expressly
acknowledged this concern in the decision under appeal
here:
Plaintiffs argue that the administrative process
will prolong their ordeal intolerably. And
their argument is not without force. Plaintiffs
document that the average delay in deciding
petitions to reclassify drugs under the CSA
is approximately 9 years. Such long delays
cast doubt on the appropriateness of requiring
exhaustion. Accord Gibson v. Berryhill, 411
U.S. 564, 575 n.14 (1973). And where, as here,
health is involved, delay can be even more
problematic. See Abbey v. Sullivan, 978 F.2d 37,
46 (2d Cir. 1992) (observing that, “if the delay
attending exhaustion would subject claimants
to deteriorating health … then waiver [of
exhaustion] may be appropriate”).
(App.20a.) See also Walker v. Southern R. Co., 385 U.S.
196, 198 (1966) (possible delay of 10 years in administrative
proceedings makes exhaustion unnecessary).
In the face of sweeping medical, scientific, legal and
social advances on cannabis, DEA has unfalteringly and
irrationally remained entrenched in the same archaic

5
position on cannabis for nearly 50 years. Indeed, the
Second Circuit was so concerned over agency footdragging that it took the extraordinary step of agreeing
to retain jurisdiction “to take whatever action may become
appropriate if Plaintiffs seek administrative review and
the DEA fails to act promptly.” (App.21a.) This half-step
is inadequate. Notwithstanding the Second Circuit’s
concerns over agency delay, the Court fails to recognize
that DEA is not only unwilling but also incapable of
providing the remedy sought by the Petitioners, making
exhaustion futile and inappropriate.
B. DEA Is Incapable of Providing the Remedy
Sought by the Petitioners
DEA has had multiple opportunities since the
early 1970s to determine the proper classification for
cannabis under the CSA, including whether it should
have any classification under the statute. 3 The evidence
nevertheless leads to the inescapable conclusion that the
agency has for decades consistently devalued or ignored
advances in cannabinoid science. Indeed, the Second
Circuit acknowledged that based on our current state of
knowledge, “[i]t is possible that the current law, though
rational once, is now heading toward irrationality; it may
even conceivably be that it has gotten there already.”
(App.14a.). This is precisely the point. DEA cannot
reasonably be expected to determine whether its own
entrenched position has become so irrational that it now
3. See, e.g., NORML v. DEA, 559 F.2d 735, 751 (D.C. Cir. 1977);
Alliance for Cannabis Therapeutics v. DEA, 15 F.3d 1131 (D.C.
Cir. 1994); Notice of Denial of Petition, 66 Fed. Reg. 20,038 (April
18, 2001); Denial of Petition To Initiate Proceedings To Reschedule
Marijuana, 76 Fed. Reg. 40,552 (July 8, 2011); Ams. for Safe Access
v. DEA, 706 F.3d 438 (D.C. Cir. 2013)

6
violates the Petitioners’ constitutional rights. That is
an issue squarely within the domain of the courts, not a
federal law enforcement agency. See, e.g., Moore v. East
Cleveland, 431 U.S. 494, 497, n. 5 (An agency may be
unable to consider whether to grant relief because it lacks
institutional competence to resolve the particular type of
issue presented, such as the constitutionality of a statute);
Mathews v. Diaz, 426 U.S. 67, 76 (1976).
Moreover, it would be futile to administratively
petition DEA to remove cannabis from scheduled control
under the CSA (de-scheduling). As recently as 2016, DEA
reaffirmed its long-standing position that marijuana
cannot be placed in a schedule less restrictive than
Schedule II due to U.S. obligations under international
drug control treaties. DEA states:
It has been established in prior marijuana
rescheduling proceedings that placement of
marijuana in either schedule I or schedule II
of the CSA is “necessary as well as sufficient to
satisfy our international obligations” under the
Single Convention. NORML v. DEA, 559 F.2d
735, 751 (D.C. Cir. 1977). As the United States
Court of Appeals for the DC Circuit has stated,
“several requirements imposed by the Single
Convention would not be met if cannabis and
cannabis resin were placed in CSA schedule III,
IV, or V.” 2 Id. Therefore, in accordance with
section 811(d)(1), DEA must place marijuana in
either schedule I or schedule II.4
4. Denial of Petition to Initiate Proceedings to Reschedule
Marijuana, CFR Chapter II and Part 1301, Fed. Register, Vol.
156, 53688 (Aug. 12, 2016)

7
In its decision under appeal, the Second Circuit briefly
addressed this issue in the context of distinguishing
the case of United States v. Kiffer, 477 F.2d 349 (2d Cir.
1973). In Kiffer, the Second Circuit considered a challenge
to the scheduling of marijuana under the CSA without
requiring exhaustion. In declining to follow Kiffer, the
Second Circuit explains:
[The court in Kiffer] waived the normal
requirement only because of two factors that do
not obtain in the instant case: first, because the
“application of the … doctrine [of exhaustion]
to criminal cases is generally not favored,”
id. at 352, and, second and more significantly,
because, at the time Kiffer was heard, the federal
government had taken the position that it did not
have the power to re‐ or de-schedule marijuana
at all, as a result of foreign treaty commitments,
id. at 351. Under those circumstances, where
“there [was] some doubt whether appellants
in fact [had] an administrative remedy,” the
Court declined to require exhaustion. Id.
The instant case is different. It is, of course,
civil. And, as the D.C. Circuit has since held,
foreign treaty commitments have not divested
the Attorney General of the power to re‐ or
de-schedule marijuana. See Nat’l Org. for
Reform of Marijuana Law (NORML) v. Drug
Enforcement Admin., 559 F.2d 735 (D.C. Cir.
1977). Kiffer’s result is therefore not controlling.
(App.18-19a.)

8
Despite the Second Circuit’s naked assertion that
NORML long ago put to rest the idea that foreign treaty
commitments preclude the de-scheduling of marijuana,
DEA continues to stand behind that legal theory in
refusing to consider placing marijuana anywhere but
Schedule I, or potentially Schedule II. The Second Circuit
nevertheless appears to have glossed over this critical
point. In its decision under appeal here, the Court writes:
Although Plaintiffs style their claims in many
different ways, the gravamen of their argument
is that marijuana should not be classified as a
Schedule I substance under the CSA. Were a
court to agree, the remedy would be to re‐ or
de-schedule cannabis. It cannot be seriously
argued that this remedy is not available
through the administrative process.
(App.16a) (emphasis added).
Yet Petitioners make precisely the argument that the
Second Circuit so casually dismisses. Indeed, Amici assert
that it is unreasonable to believe that the Petitioners would
be able to achieve anything other than reclassification to
Schedule II – a remedy that has never been sought – by
exhausting administrative remedies with DEA.
The Second Circuit apparently believes that the
Petitioners’ constitutional challenge equates to a request
for the de-scheduling of cannabis. Even if true, which
Amici dispute, is it reasonable to believe that filing yet
another petition with DEA would cause the agency to
reverse an entrenched legal position that has become
irrational over time, and particularly when the agency

9
has vigorously defended that position since as long ago
as 1972 and as recently as 2016? Exhaustion has not
been required where the challenge is to the adequacy
of the agency procedure itself, such that “the question
of the adequacy of the administrative remedy … [is] for
all practical purposes identical with the merits of [the
plaintiff’s] lawsuit.” McCarthy, 503 U.S. at 148, citing
Barry v. Barchi, 443 U. S. 55, 63, n. 10 (1979) (quoting
Gibson v. Berryhill, 411 U. S. 564, 575). Here, the central
legal remedy requested by the Petitioners in this lawsuit
is the very thing that the agency procedure cannot give.
Exhaustion is futile.
II. DEA’s Limited Authority to Reclassify Marijuana
as a Schedule II Controlled Substance Could
Cripple the Burgeoning Legal Cannabis Industry
The sole administrative remedy that DEA states it can
provide – reclassifying marijuana to Schedule II – has not
been requested by the Petitioners because the creation of
a prescription drug model could have devastating financial
implications on the nascent cannabis industry and could be
far worse than the troublesome status quo under Schedule
I. Reclassifying exposes the cannabis industry to costly
regulatory hurdles, including expensive and arduous
clinical trials, that could result in the destruction of all
state medical cannabis and adult-use programs, including
state-created social equity licensing programs that
address the disparate harms imposed on communities of
color from decades of state and local cannabis prohibition.
The resulting harmful social costs include removing
access to medicine for millions of medicinal marijuana

10
patients, 5 loss of hundreds of thousands of jobs, the
evisceration of billions of dollars in needed tax revenue
and the resurgence of the illicit marijuana market. These
harmful consequences would be felt directly by individuals
such as Petitioners Bortell and Cotte, who in the words of
the Second Circuit, are “children with dreadful medical
problems” and Petitioner Belen, a veteran of the Iraq
war who turned to medical cannabis after conventional
therapies were unsuccessful in treating his post-traumatic
stress disorder. (App.5a-6a.) In addition to the human
cost, there could be very significant economic costs to the
industry that serves these Americans—to say nothing
of the states that rely on the industry for tax revenue.
Reclassification to Schedule II also would put at risk the
$2.62 billion in venture capital infused into the marijuana
industry in 2019 alone.6
Current federal policy regarding enforcement of the
CSA has shown ambivalence where the possession and
distribution of marijuana is consistent with well-regulated
state law. Congress’s position that taxpayer funds may not
be used to prosecute state-compliant medical cannabis
operators (as codified in successive federal appropriations
acts), despite marijuana’s Schedule I status, has created
5. As of July 6, 2020, approximately 4,375,822 patients are
registered to use medical cannabis across the country. Medical
Marijuana Patient Numbers, M arijuana Policy Project (July
6, 2020), https://www.mpp.org/issues/medical-marijuana/stateby-state-medical-marijuana-laws/medical-marijuana-patientnumbers/.
6. Jav ier Hasse, Even As Overall Deals Declined ,
VC Investments in Cannabis Nearly Doubled Over 2019,
Forbes (January 28, 2020), https://w w w.forbes.com /sites/
javierhasse/2020/01/28/vc-in-cannabis/#70ba8335a8c9.

11
a “de facto” quasi-legal status for the plant when used for
medicinal purposes.7 Indeed, federal agencies have issued
guidance to industries that seek to work with marijuana.
The Department of the Treasury, through FinCEN,
issued guidelines in 2014 to financial institutions seeking
to provide services to marijuana-related businesses by
clarifying the financial institutions’ obligations under
the Bank Secrecy Act 8 and relevant federal anti–money
laundering statutes. The stated purpose of those
guidelines, which remain in place today, is to “enhance
the availability of financial services for, and the financial
transparency of, marijuana-related businesses.” 9
Marijuana’s “de facto” legal status has facilitated the
growth for an industry worth an estimated $10.73 billion
in early 2020 and that currently supports more than
7. See generally Rohrabacher-Farr Amendment, which
prevents the Department of Justice from spending funds to
interfere with the implementation of state medical cannabis
laws. The Ninth Circuit has interpreted the RohrabacherFarr Amendment as prohibiting the Department of Justice
from spending funds from relevant appropriations acts for the
prosecution of individuals engaged in conduct permitted by state
medical cannabis laws and who fully complied with such laws.
See U.S. v McIntosh, 833 F.3d 1163, 1178 (9th Cir. 2016); See also,
Green Earth Wellness Center, LLC v. Atain Specialty Ins. Co.,
163 F. Supp.3d 821 (D. Colo. 2016) (rendering an insurance policy’s
“Contraband” exclusion “ambiguous by the difference between the
federal government’s de jure and de facto public policies regarding
state-regulated medical marijuana.”).
8. 31 USC 5312 et seq.
9. FinCEN Guidance on BSA Expectations Regarding
Marijuana-Related Businesses (February 14, 2014), https://www.
fincen.gov/sites/default/files/guidance/FIN-2014-G001.pdf.

12
243,000 full-time jobs, even in states with historically
high unemployment rates caused by COVID-19.10 Sales in
Colorado, for example, reached $1.77 billion in 2019 while
the market supported more than 34,700 cannabis-related
jobs.11 Florida maintained its more than 15,498 cannabis
industry jobs in the first half of 2020 with sales in 2019
that approached $800 million.12 Arizona’s medical cannabis
program supports 15,059 jobs and posted an estimated
$709 million in total market value in 2019.13 Oklahoma
saw an unprecedented growth rate of 221 percent in 2019,
which continues to support in excess of 9,400 jobs in 2020.14
States also have reaped significant tax revenue. In
2019, Colorado collected more than $302 million in tax
revenue from cannabis-related activity,15 while California
earned $629.3 million in 2019.16 Washington collected
$395.5 million in cannabis tax revenue in 2019, which was
10. Cannabis Jobs Report: Legal cannabis now supports
243,70 0 f ull-tim e Am er ican Jobs, L e a f ly (Febr ua r y 7,
2020), https:// leaf ly-cms-production.imgix.net/wp-content/
uploads/2020/02/06145710/Leafly-2020-Jobs-Report.pdf.
11. Id. at 8
12. Id.
13. Id.
14. Id. at 9
15. Colorado Department of Revenue, State of Colorado,
(February 2020), https://www.colorado.gov/pacific/sites/default/
files/0120_MJTaxCalendarReport_PUBLISH.pdf
16. California Department of Tax and Fee Administration,
S tate of California (June 2020), https://www.cdtfa.ca.gov/
dataportal/dataset.htm?url=CannabisTaxRevenues

13
$170 million more than the state collected for beer, wine
and liquor sales combined.17
No other industry in the history of this country has been
able to survive and grow to this extent in the face of such
a legal quagmire. DEA’s self-asserted sole administrative
remedy of reclassification to Schedule II, however, could
result in the destruction of all state cannabis programs and
a further resurgence of the unregulated illicit marijuana
market. Under the CSA and accompanying regulations,
every person who manufactures, distributes, dispenses,
imports or exports any controlled substance must register
with the DEA 18 for each principal place of business or
professional practice where controlled substances are
manufactured, distributed or disposed.19 Every operator
in the country would be subject immediately to these
requirements if marijuana is reclassified to Schedule
II. Because the refilling of prescriptions for Schedule II
substances is prohibited, 20 patients would require new
prescriptions from their medical provider whenever they
run out of their life-saving medicine. These requirements
are incompatible with current state medical and adult-use
cannabis programs.

17. Washington State Liquor and Cannabis Board, A nnual
Report Fiscal Year 2019 (June 2019) https://lcb.wa.gov/sites/
default/files/publications/annual_report/2019-annual-reportfinal2.pdf
18. 21 U.S.C. § 822
19. 21 C.F.R. § 1301.12
20. 21 U.S.C § 829(a)

14
Furthermore, FDA would have jurisdiction to regulate
marijuana as a Schedule II drug under the Federal Food
Drug & Cosmetic Act (FDCA) and would almost certainly
qualify medical cannabis as a “new drug,” subjecting it
to myriad regulations including the requirement that
companies file an investigational new drug application
for clinical trials to study the safety and efficacy of any
new drug. 21 New drugs may not be introduced legally
or delivered for introduction into interstate commerce
without prior approval from FDA. 22 This requirement
alone could cripple the industry due to its cost, and at a
minimum could create a product bottleneck preventing
many Americans from accessing these products on which
they rely from a regulated and taxed source. In 2018,
a study led by a research team from Johns Hopkins
Bloomberg School of Public Health found that the median
cost for a clinical trial was $19 million, representing less
than one percent of the average total costs of developing
a new drug. 23 This would cause the financial ruin of even
the best-capitalized operators, let alone the hundreds of
small businesses that won licenses via state-created social
equity programs to assist historically disenfranchised
communities. Those costs and delays will fall directly on
average Americans such as Petitioners.

21. 21 C.F.R § 312.2
22. 21 U.S.C. § 331(d) and § 355(a)
23. Cost of Clinical Trials for New Drug FDA Approval
Are Fraction of Total Tab, Johns Hopkins Bloomberg School
of P ublic Health (September 24, 2018), https://www.jhsph.edu/
news/news-releases/2018/cost-of-clinical-trials-for-new-drugFDA-approval-are-fraction-of-total-tab.html.

15
CONCLUSION
The decision of the lower courts to require the
exhaustion of administrative remedies as a prerequisite
to the Petitioners’ constitutional claim constituted error.
DEA continues to defend its irrational position on the
scheduling of cannabis and continues to state that descheduling cannabis is not an available administrative
remedy. Likewise, reclassification of cannabis to Schedule
II does not represent a viable remedy for the Petitioners,
who have not requested reclassification in any event.
In dismissing the Petitioners’ constitutional claim, the
Second Circuit’s casual conclusion that “it cannot be
seriously argued” that reclassification or de-scheduling
cannabis is not available through the administrative
process is not only a gross over-simplification that fails to
account for an entrenched and irrational agency mindset,
it is simply wrong on the legal merits. Pursuant to this
Court’s holding in McCarthy, a reasonable balancing of
the individual and institutional interests is required here
and should lead only to the reasonable conclusion that
exhaustion is not necessary and that the matter should
be allowed to proceed in the district court.
For the foregoing reasons, Amici NCIA and The
Arcview Group respectfully request that the Court grant
the petition for a writ of certiorari.

16
		

Respectfully submitted,
Ian A. Stewart
Melissa A. Murphy-Petros*
Neil M. Willner
Wilson Elser Moskowitz Edelman
& Dicker, LLP
55 West Monroe Street, Suite 3800
Chicago, IL 60603-5001
(312) 704-0550
melissa.murphy-petros@wilsonelser.com
Counsel for Amicus Curiae

* Counsel of Record

